NRC: OIG/95A-20 - NRC's Decommissioning Financial Assurance Requirements for Federal Licensees May Not Be Sufficient
Skip to Main Page Content
Skip to Search
Skip to Site Map Navigation
Skip to Footer Links
Home
FAQ
Glossary
Facility Locator
What's New
Site Help
Index A-Z
Contact Us
Browse Aloud
Email Updates
Search NRC
Report a Safety Concern
Nuclear Reactors
Power Reactors
Research & Test Reactors
Operating Reactors
Operator Licensing
New Reactors
Advanced Reactors
Operator Licensing for New Reactors
Nuclear Reactor Quick Links
Nuclear Materials
Special Nuclear Material
Source Material
Byproduct Material
Med, Ind, & Academic Uses
Source Materials Facilities
Uranium Recovery
Fuel Cycle Facilities
Materials Transportation
Nuclear Materials Quick Links
Radioactive Waste
Decommissioning of Nuclear Facilities
Low-Level Waste
Waste Incidental to Reprocessing
High-Level Waste
Uranium Mill Tailings
Low-Level Waste Disposal
High-Level Waste Disposal
Storage of Spent Nuclear Fuel
Transporation of Spent Nuclear Fuel
Radioactive Waste Quick Links
Nuclear Security
Domestic Safeguards
Information Security
Radioactive Material Security
Contact Us
Public Meetings & Involvement
The NRC Approach to Open Government
About Meetings Open to the Public
Conferences & Symposia
Documents for Comment
Facilitating Stakeholder Involvement
NRC Information Quality Guidelines
Subscribe to E-mail Updates
Commission Schedule
Public Meeting Schedule
Adjudications (Hearings)
NRC Library
Basic References
Document Collections
ADAMS Public Documents
Public Document Room
Get Copies of Documents
FOIA & Privacy Act Requests
Photos & Video
Records Management
Withholding of Sensitive Information
FAQ Index
Electronic Hearing Docket
About NRC
The Commission
Organization & Functions
Governing Legislation
Plans, Budget, & Performance
Locations
History
Values
Direction-Setting & Policymaking
Radiation Protection
Fire Protection
Safety Culture
How We Regulate
Emergency Preparedness & Response
Public Affairs
Congressional Affairs
International Programs
State & Tribal Programs
Alternative Dispute Resolution Programs
Civil Rights
Contact Us
Career Opportunities
Contracting Opportunities
Grant Opportunities
Print
Home > NRC Library  > Document Collections > Inspector General
Reports > 1996 >  OIG/95A-20
OIG/95A-20 - NRC's Decommissioning Financial Assurance Requirements for Federal Licensees May Not Be Sufficient
Contents
Overview
Report Synopsis
Introduction
Findings
NRC's Decision Assumed Federal Backing
Federal Backing of TVA Obligations is Questionable
TVA Has Established an Internal Decommissioning Fund
Conclusions
Recommendation
Agency Comments
Objective, Scope, and Methodology
Agency Comments on Draft Report
NRR Comments on Draft Inspector General (IG) Report - "NRC's
Decommissioning Financial Assurance Requirements for Federal Licensees May
Not Be Sufficient"
U.S. NRC Functional Organization Chart
Major Contributors to This Report
Glossary: Office of the Inspector General Products
Overview
Office of the Inspector General U.S. Nuclear Regulatory Commission NRC's Decommissioning Financial Assurance Requirements For Federal Licensees May Not Be Sufficient United States Nuclear Regulatory Commission Washington, DC  20555 April 3, 1996
Memorandum to:
James M. Taylor Executive Director for Operations
From:
Thomas J. Barchi Assistant Inspector General for Audits
Subject:
NRC's Decommissioning Financial Assurance Requirements for Federal Licensees May Not Be Sufficient
Attached is the Office of the Inspector General's audit report entitled, "NRC's Decommissioning Financial Assurance Requirements for Federal Licensees May Not be Sufficient."  We conducted this review because of the high cost of decommissioning and concerns raised by a General Accounting Office report about the financial condition of the Tennessee Valley Authority (TVA).
On March 1, 1996, we provided a draft of this report to the Deputy Executive Director for Nuclear Reactor Regulation, Regional Operations and Research (DEDO).  On March 22, 1996, the DEDO responded to our report, stating that he agreed with our recommendation that the staff reevaluate the basis for allowing Federal power reactor licensees to use a statement of intent for decommissioning funding assurance.  The DEDO's comments are contained in Appendix II of this report.
Attachment:
As stated
cc:
H. Thompson, EDO
J. Milhoan, EDO
K. Cyr, OGC
J. Hoyle, SECY
D. Rathbun, OCA
J. Blaha, EDO
R. Scroggins, OC
P. Norry, ADM
G. Cranford, IRM
R. Bangart, OSP
W. Russell, NRR
E. Jordan, AEOD
D. Morrison, RES
C. Paperiello, NMSS
J. Funches, ICC
W. Beecher, OPA
T. Martin, RI
S. Ebneter, RII
H. Miller, RIII
L. Callan, RIV
OPA-RI
OPA-RII
OPA-RIII
OPA-RIV
OPA-RIV: Walnut Creek
Report Synopsis
The U.S. Nuclear Regulatory Commission (NRC) requires all commercial nuclear power plants to undergo "decommissioning" after they are no longer in service.  To ensure that licensees will have sufficient funding to decommission their power plants, NRC requires each licensee to provide some form of a financial assurance mechanism.  While most NRC licensees must either prepay decommissioning costs, provide a surety guarantee, or establish an external sinking fund, the agency allows Federal Government licensees to use a statement of intent to meet these requirements.  Given the high costs associated with decommissioning power plants--one estimate ranges from $200 million to $700 million per unit--the Office of the Inspector General reviewed NRC's basis for allowing Federal licensees who operate nuclear power plants to rely on a statement of intent to meet their financial assurance requirements for decommissioning.
We found that NRC's decision to allow Federal licensees to use a statement of intent to meet decommissioning funding requirements for their nuclear power plants was based primarily on the assumption that the Federal Government would pay the financial obligations of the lone Federal licensee, the Tennessee Valley Authority (TVA), should it be unable to do so.  However, based on our review of the U.S. Code and discussions with officials from the Department of Treasury, the Office of Management and Budget and TVA, we believe NRC's assumption is questionable.  We also believe the NRC staff responsible for developing and reviewing the rule did not conduct sufficient analysis to determine whether allowing Federal licensees to use a statement of intent was appropriate.
We also found that, although not required, TVA has established a fund dedicated
to meet its decommissioning obligations. However, because this is an internal
fund it can be used for other purposes. In fact, TVA had at one time temporarily
depleted its decommissioning fund.
Introduction
The U.S. Nuclear Regulatory Commission (NRC) requires all commercial nuclear power plants to undergo "decommissioning" after they are no longer in service.  Decommissioning is the safe removal of nuclear facilities from service, and reduction of radioactivity to levels that permit the release of the property for unrestricted use.  To ensure that licensees will have sufficient funding to decommission their power plants, NRC requires each licensee to provide some form of a financial assurance mechanism.  One purpose of this requirement is to reduce the risk to taxpayers of cleaning up the facility if the licensee cannot pay for decommissioning.
According to the decommissioning rule, issued in June 1988, most NRC licensees must either prepay decommissioning costs, provide a surety guarantee or establish an external sinking fund(1).  However, the agency allows Federal Government licensees to use a statement of intent to satisfy decommissioning funding requirements.  Using a statement of intent, Federal licensees need only state that adequate funds to support decommissioning will be available when necessary.  Since the rule was issued, virtually all power reactor licensees have established external sinking funds.  However, NRC's lone Federal power reactor licensee, the Tennessee Valley Authority (TVA), uses statements of intent to meet financial assurance requirements for its six reactors.
In August 1995, the General Accounting Office (GAO) issued a report(2) which raised concerns about TVA's financial condition, noting a debt of $26 billion and a high level of non-producing nuclear assets.  GAO believes TVA's financial condition threatens its long-term viability, and could place the Federal government at risk.  Given the high costs associated with decommissioning power plants--TVA's estimates range from $200 million to $700 million per unit--the Office of the Inspector General (OIG) reviewed NRC's basis for allowing Federal licensees who operate power reactors to rely on a statement of intent to meet their financial assurance requirements for decommissioning.
To understand the basis for NRC's decision, we discussed the reasoning behind the rule with NRC officials responsible for implementing decommissioning policy in the Office of Nuclear Reactor Regulation (NRR) and the Office of General Counsel (OGC), and reviewed the assumptions and conclusions made during rule development.  We also discussed decommissioning requirements with senior TVA officials, the licensee most affected by the rule.  Additional details on our objective, scope, and methodology are described in Appendix I.  We limited our review to power reactor licensees.
On February 8, 1996, NRC announced plans to issue an Advance Notice of Proposed
Rulemaking to amend decommissioning financial assurance requirements in response
to restructuring and deregulation of the electric power industry. The proposed
rule changes would more clearly define "electric utility" and require licensees
to report periodically on the status of their decommissioning funds. As it is
currently written, the rule change does not address the use of a statement of
intent by Federal licensees.
Findings
We found that NRC's decision to allow Federal licensees to use a statement of intent as financial assurance to meet decommissioning funding requirements for their nuclear power plants was based primarily on the assumption that the Federal Government would pay TVA's financial obligations should the utility be unable to do so.  However, based on our review of the U.S. Code and discussions with officials from the Department of Treasury, the Office of Management and Budget (OMB) and TVA, we believe the basis for NRC's assumption is questionable.  We also believe NRC staff did not sufficiently evaluate the implications of allowing Federal licensees to use a statement of intent to satisfy decommissioning funding requirements.
We also found that, although not required, TVA has established a fund dedicated
to meeting its decommissioning obligations. However, because this is an internal
fund, it can be used for other purposes. In fact, TVA had at one time temporarily
depleted its decommissioning fund, though it subsequently replaced the amount
it collected from its ratepayers to meet decommissioning expenses.
NRC's Decision Assumed Federal Backing
As stated in the preamble to the 1988 rule, the Commission was concerned that an internal fund would not provide reasonable assurance that decommissioning would be carried out in a manner which protects public health and safety for two reasons.  First, the Commission believed there was not reasonable assurance that internal reserves could be effectively protected and legally secure from the claims of creditors in the event of a bankruptcy.  Second, because an internal reserve fund is not dedicated solely to supporting decommissioning, a utility may use the funds for unrelated purposes.  Accordingly, for commercial licensees, NRC eliminated the internal reserve as a possible method of providing decommissioning funds.
In contrast, NRC's final rule allows Federal licensees to use a statement of intent because:
"...there is reasonable assurance that the appropriate government entity, which has the power of taxation, will provide adequate funding in the future to decommission the facility in a manner which protects public health whereas this is not necessarily the case with private organizations even if they are currently adequately capitalized."
Agency officials told us that NRC allowed the use of a statement of intent based primarily on the assumption that the Federal Government would pay for any unmet decommissioning obligations of the lone Federal licensee, TVA, should it be unable to do so.  We were told that this assumption was derived from the "AAA" rating that commercial rating services assigned to TVA's bonds.  However, NRR officials told us they did not review the commercial rating services' basis for these bond ratings.
We asked OGC staff to provide its analysis of the appropriateness of allowing
Federal licensees to use statements of intent. In response to our inquiry, OGC
staff stated that at the time the rule was developed it was not asked, and,
therefore, did not provide, specific guidance regarding the application of financial
assurance requirements to TVA. OGC's response did not address the issue of whether
it was appropriate for Federal licensees, such as TVA, to be allowed to use
a statement of intent.
Federal Backing of TVA Obligations is Questionable
Based on reviews of the U.S. Code, and discussions with officials from Treasury,
OMB and TVA, we believe that it is questionable to assume the Federal Government
will pay for any of TVA's unmet decommissioning costs. Section 831n-4 of Title
16 of the U.S. Code states that bonds issued by TVA are not obligations of the
United States, nor are they guaranteed by the United States Government. The
Deputy Assistant Secretary for Government Financial Policy at the Department
of Treasury confirmed this policy and stated that the U.S. Treasury may not
back TVA's bonds or other obligations. Likewise, an OMB official expressed doubt
that the Federal Government would guarantee payment of TVA's bonds, and stated
that OMB's Office of General Counsel would have to provide OMB's position on
this issue. TVA officials also told us that no other Federal entity guarantees
TVA's obligations incurred through operating its power system.
TVA Has Established an Internal Decommissioning Fund
TVA officials told us that TVA is committed to meeting its decommissioning obligations.  For example, TVA began a decommissioning fund in 1977, before NRC imposed the requirement on commercial reactors.  TVA's ratepayers have contributed $108 million to the fund which, through investments, had appreciated to about $261 million, as of January, 1996.
TVA's decommissioning fund is an internal fund and, therefore, unlike other
NRC licensees, TVA can use the fund at its discretion. For instance, in September
1993, TVA sold the investments in the decommissioning fund, completely depleting
the fund. TVA realized a gain on the sale and eventually replenished all the
funds collected from its ratepayers to support decommissioning.
Conclusions
NRC staff based their decision to allow Federal licensees who operate power reactors to use a statement of intent to meet financial assurance requirements on the assumption that the Federal Government would back TVA's financial obligations should the utility be unable to do so.  Based on our review of the U.S. Code and discussions with officials from Treasury, OMB and TVA, we believe there are questions as to whether the Federal Government will back TVA's debts and obligations.  In other words, NRC based a general rule for Federal licensees on a specific assumption, that the Federal Government would back TVA's obligations.  However, we found this assumption to be questionable.
In addition, when addressing decommissioning requirements for Federal licensees,
NRC staff did not thoroughly (1) examine TVA's bond restrictions and ratings,
or (2) evaluate the implications of relying on a statement of intent to meet
Federal licensees' decommissioning obligations. Therefore, we question the agency's
basis for allowing Federal licensees to use a statement of intent to meet decommissioning
requirements.
Recommendation
We recommend the staff re-evaluate the basis for allowing Federal licensees
who operate power reactors to use a statement of intent for decommissioning
financial assurance. If NRC continues to believe that such an approach is appropriate,
then the Commission should document its analysis, particularly agreements and
commitments made by the Federal Government to guarantee Federal licensees' financial
responsibility for decommissioning.
Agency Comments
The Deputy Executive Director for Nuclear Reactor Regulation, Regional Operations
and Research agrees with our recommendation that NRC staff reevaluate the basis
for allowing Federal power reactor licensees to use a statement of intent for
decommissioning funding assurance. He stated the agency will conduct this reevaluation
in the context of an overall review of NRC's decommissioning funding assurance
and financial qualification regulations. His comments are contained in Appendix
II.
Objective, Scope, and Methodology
To understand NRC's decision to allow Federal licensees who operate nuclear
power reactors to use a statement of intent to fund decommissioning requirements,
we interviewed NRC staff responsible for implementing decommissioning policy
and requirements, monitoring the TVA power plants, and conducting financial
analyses. We also pursued various legal issues with NRC's Office of General
Counsel. We interviewed staff at the U.S. General Accounting Office, the director
of Standard & Poor's Rating Service, the Department of Treasury's Deputy
Assistant Secretary for Government Financial Policy, and a budget examiner with
the Office of Management and Budget. Finally, we interviewed senior TVA officials
in Chattanooga, Tennessee to obtain their perspectives regarding decommissioning
funding and TVA's use of a statement of intent. This audit was conducted according
to generally accepted government auditing standards between December 1995 and
February 1996. We did not assess the adequacy of NRC's internal management controls.
Agency Comments on Draft Report
United States Nuclear Regulatory Commission Washington, DC  20555 March 22, 1996
Memorandum to:
Thomas J. Barchi, Assistant Inspector General for Audits Office of the Inspector General
From:
James L. Milhoan Deputy Executive Director for Nuclear Reactor Regulation, Regional Operations and Research
Subject:
Comments on Draft Report - NRC's Decommissioning Financial Assurance Requirements for Federal Licensees May Not Be Sufficient
As requested in your memorandum to me dated March 1, 1996, the Office of Nuclear Reactor Regulation (NRR) has reviewed the subject report.  We agree with your recommendation that the staff reevaluate the basis for allowing Federal power reactor licensees to use a statement of intent for decommissioning funding assurance.  We will conduct this reevaluation in the context of an overall review of NRC's decommissioning funding assurance and financial qualification regulations.  The staff will complete this review as part of an action plan to address electric utility restructuring.  The plan was submitted to the Commission on January 6, 1996.  We also have attached several specific comments.
Attachment: As stated
Contact: Robert Wood, NRR
(301) 415-1255
NRR Comments on Draft Inspector General (IG) Report - "NRC's Decommissioning
Financial Assurance Requirements for Federal Licensees May Not Be Sufficient"
1.  Page 4.  The IG report states, "We also believe NRC staff did not sufficiently evaluate the implications of allowing Federal licensees to use a statement of intent to satisfy decommissioning funding requirements."
NRR response:  TVA has a large, exclusive franchise area that has been granted by the Federal government since TVA's formation in 1933.  The area includes all of Tennessee and portions of several other states.  This franchise virtually guarantees that TVA will receive extensive revenues from the sale of electricity (at rates which it has the power to set) for the foreseeable future.  Even in the remote case where TVA defaulted on its bonds, revenues from electricity sales would not cease.  The Federal franchise should ensure that TVA will remain in the business of selling electricity even if TVA encounters financial difficulties at some future time.  Bond holders might suffer losses, but it does not necessarily follow that decommissioning funds would not be paid from such revenues.  The above factors were considered in the staff's evaluation of TVA's use of a statement of intent.
2.  Page 5. The IG report indicated that the staff assumed that the Federal government would pay for any unmet decommissioning obligations of TVA and that the assumption was based on the "AAA" rating that commercial rating services assigned to TVA's bonds.
NRR response:  As indicated to our response to item 1, above, this statement is largely correct.  We recall that the staff used other considerations, such as TVA's unique Federal franchise status as well as financial risk as reflected by TVA's bond ratings.  From the period when the decommissioning rule was being developed and promulgated in the early 1980s until now, TVA has consistently maintained an "AAA" bond rating or equivalent from the major rating agencies.  The staff is aware of no other power reactor licensee who currently has or has consistently maintained an "AAA" rating, the highest rating given by rating agencies.  Moody's Public Utility Manual, which the NRR staff uses to determine licensee ratings, defines "Aaa", its version of an "AAA" rating, as follows:
Bonds which are rated AAA are judged to be of the best quality.
They carry the smallest degree of risk and are generally referred to as `gilt
edge.' Interest payments are protected by a large or by an exceptionally stable
margin and principal is secure. While the various protective elements are likely
to change, such changes as can be visualized are most unlikely to impair the
fundamentally strong position of such issues. (See Moody's, p. viii.)
The rating agencies do not give "AAA" ratings cavalierly.  They have large staffs devoted to providing investors and others with reasoned judgments on the long-term financial risks associated with bonds issued by rated organizations.  Notwithstanding the lack of a formal Federal obligation to pay, the NRR staff interpreted TVA's ratings over time as also reflecting TVA's franchise position and as providing significant assurance of TVA's long-term implicit Federal backing.
3.  Page 9, regarding the IG report recommendation.
NRR response: NRR believes that the IG report's recommendation is
reasonable, in view of the GAO report, and will review this policy as part of
the general review of the decommissioning and financial assurance regulations
to be undertaken as part of the action plan submitted to the Commission on February
6, 1996.
U.S. NRC Functional Organization Chart
[ Figure 1: The
U.S. NRC Functional Organization Chart]
Major Contributors to This Report
William D. McDowell Team Leader
Lindley R. Higgins
Senior Management Analyst
Glossary: Office of the Inspector General Products
Investigative
1. Investigative Report - White Cover
An Investigative Report documents pertinent facts of a case and describes available evidence relevant to allegations against individuals, including aspects of an allegation not substantiated.  Investigative reports do not recommend disciplinary action against individual employees. Investigative reports are sensitive documents and contain information subject to the Privacy Act restrictions.  Reports are given to officials and managers who have a need to know in order to properly determine whether administrative action is warranted.  The agency is expected to advise the OIG within 90 days of receiving the investigative report as to what disciplinary or other action has been taken in response to investigative report findings.
2. Event Inquiry - Green Cover
The Event Inquiry is an investigative product that documents the examination of events or agency actions that do not focus specifically on individual misconduct.  These reports identify institutional weaknesses that led to or allowed a problem to occur.  The agency is requested to advise the OIG of managerial initiatives taken in response to issues identified in these reports but tracking its recommendations is not required.
3. Management Implications Report (MIR) - Memorandum
MIRs provide a "ROOT CAUSE" analysis sufficient for managers to facilitate
correction of problems and to avoid similar issues in the future. Agency tracking
of recommendations is not required.
Audit
4. Audit Report - Blue Cover
An Audit Report is the documentation of the review, recommendations, and findings resulting from an objective assessment of a program, function, or activity.  Audits follow a defined procedure that allows for agency review and comment on draft audit reports.  The audit results are also reported in the OIG's "Semiannual Report" to the Congress.  Tracking of audit report recommendations and agency response is required.
5. Special Evaluation Report - Burgundy Cover
A Special Evaluation Report documents the results of short-term, limited assessments.
It provides an initial, quick response to a question or issue, and data to determine
whether an in-depth independent audit should be planned. Agency tracking of
recommendations is not required.
Regulatory
6. Regulatory Commentary - Brown Cover
Regulatory Commentary is the review of existing and proposed legislation, regulations, and policies so as to assist the agency in preventing and detecting fraud, waste, and abuse in programs and operations.  Commentaries cite the IG Act as authority for the review, state the specific law, regulation or policy examined, pertinent background information considered and identifies OIG concerns, observations, and objections.  Significant observations regarding action or inaction by the agency are reported in the OIG Semiannual Report to Congress.  Each report indicates whether a response is required.
Notes:
1.  An external sinking fund is established and maintained
by periodically setting funds aside in an account segregated from licensee assets
and outside the licensee's administrative control.
2.  Tennessee Valley Authority: Financial Problems Raise
Questions About Long-Term Viability, GAO/AIMD/RCED-95-134, August 1995.
Page Last Reviewed/Updated Thursday, March 29, 2012
Home
News Releases
Event Reports
ADAMS
Open Gov
Digital Government
Students & Teachers
Photos & Video
For Developers
About Us
Strategic Plan
Budget & Performance
Perf & Accountability Rept
History of the NRC
Career Opportunities
NRC Ethics
Agency Status
Contact Us
Popular Documents
Info Digest
Factsheets & Brochures
Forms
Electronic Submittals Application
NRC Reports – NUREG
NRC Regulations – 10-CFR
Inspection Reports
Plain Writing
Enforcement Actions
RULEMAKING
Stay Connected
Blog
Chat
Twitter
YouTube
Flickr
GovDelivery
RSS
Regulations.gov USA.gov Recovery FOIA No Fear EEO Inspector General  Site Map Accessibility Privacy Policy Site Disclaimer For Employees